 ""




        OPHTHALMOLOGVOPTOMETRY

         RELATIONSHIPS INVOLVED
            CATARACT SURGERY





  +t- l/
      " SIIlYICls.





        ""Ia

OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                     APRIL 1989
           PHTHALMOLOGVO PTO ETRY

           RELATIONSHIPS INVOLVED
              CATARACT SURGERY





                       RICHARD P. KUSSEROW
                         INSPECTOR GENERAL




o AI- 07 - 88- 00460                         APRIL 1989
                                EXECUTIVE SUMMARY

OBJECTIVES

This inspection focuses on issues involving optometrsts ' providing postoperative care to
Medicare beneficiares following catat surgery. The overall objectives of the inspection
were to detennne:

      the extent and frequency of postoperative care by optometrsts;

      the extent of referral arangements between ophthalmologists and optometrsts;

      the manner of billng by ophthalmologists and optometrsts for cataract surgery when an
      optometrst provides postoperative car; and

      whether the practice of optometrsts ' providing cataract surgery postoperative care could
      lead to abusive referral arrangements, and possible duplicate bilings.

BACKGROUND

This program inspection was requested by the Administrtor of the Health Care Financing Ad­
ministration (HCFA), who was concerned about the issue of optometrsts ' providing postopera­
tive care to Medicare beneficiares who had cataract surgery. This practice increased after
Medicare coverage was expanded by the Omnibus Budget Reconciliation Act of 1986. This
legislation penntted coverage of optometrsts as physicians for any services they ar legally
authorized to perform in the State in which they practice. All 50 States permit optometrsts to
use diagnostic drgs. Funher, 23 States have passed legislation allowing optometrsts to use
and prescribe therapeutic drugs, greatly expanding their scope of practice and ability to treat
patients during the postoperative period following cataract surgery.

METHODOLOGY

Preinspection work included meetings and contacts with the Americ n Academy of Ophthal­
mology, the American Optometrc Association , State licensing boards, Medicare carrers , and
HCFA staf.

A random sample of eight Medicar carers was selected. Two carrers, who were randomly
selected twice, provided two independent samples. One hundred claims " histories " for
patients who had undergone cat8ract surgery were randomly selected for review from each
sampled carer (200 from those carers which provided two samples). These histories were
analyzed to determine the extent to which ophthalmologists delegate postoperative care to op­
tometrsts, and the extent to which optometrsts are reimbursed for postoperative care already
biled by the ophthalmologists as    pan of a global fee coverig   both surgery and postoperative
care.

The eight carers also provided a separate sample of the names of 60 ophthalmologists who
perform catarct surgery for Medicare beneficiares. One- half of these surgeons were selected
from among the highest-paid ophthalmologists at each carer and the other half from those
receiving the mid-range of payments. Fifty-eight of the 60 surgeons were interviewed regard­
ing their practice. The surgeons were requested to provide a sample of names of optometrsts
handling aftercar, and a sample of names of cataract surgery patients. The optometrsts and
patients were interviewed to obtain their opinions on the issues of optometrsts ' providing
cataract surgery referrals to ophthalmologists and optometrsts ' providing postoperative care.

In addition, peer review organizations (PROs) and State Boards of Optometr were contacted
in each of the sampled States to discuss their experiences and opinions regarding these issues.

FINDINGS

Medicare May Be Paying Too Much For Postoperative Care Following Cataract Surgery

        The number of postoperative days encompassed by the global fee vares by carrer, as
        does the percentage of the global fee allocated to surgery versus postoperative care.
        a result, in some cases Medicare is makng additional payments for postoperative care
        which would be included in the global fee by other carers.

        In 97 percent of cataract surgery cases reviewed, the ophthalmologists biled a global
        fee. In a small number of these cases, optometrsts were paid inappropriately by
        Medicare for postoperative services during the period encompassed by the global fee.

There Is A Direct Correlation Between The Existence Of Referral Arrangements, Formal
And Informal, And The Use Of Optometrists For Follow-up Care

        Thireen (46 percent) of the highest- paid ophthalmologists sampled referred cataract
        surgery patients to optometrsts for postoperative care, in contrst to 3 (10 percent) of
        the ophthalmologists receiving mid-range payments.

        Ophthalmologists who refer cataract surgery patients to optometrsts for postoperative
        care receive a higher percentage of their surgical referrals from optometrsts than do
        ophthalmologists who do all postoperative care themselves (32 percent versus 7
        percent). States that allow optometrsts to prescribe therapeutic drugs had a higher
        overall percentage of optometrc referrals.
The Inspection Did Not Examine Quality Of Care; However, Some Potentil Vulnerabilities
Were Noted

     There is no consensus regardig the division of responsibilty following cataract surgery
     when the surgeon does not provide all such care. This lack of standards for treatment
     means that there ar no standards for review of such car.

     Ophthalmologists who refer their patients to optometrsts for postoperative care,
     compared to those who perform their own postoperative care, generally follow their
     patients for a shorter postoperative period. However, most optometrsts said that
     although they provide postoperative care, they only treat routine complaints, and would
     refer patients back to ophthalmologists for treatment of serious complications.

     More than half the ophthalmologists stated they had provided Medicare patients with
     second opinions regarding the necessity for cataract surgery. However , only 20 percent
     of the sample patients said they had received a second opinion before undergoing
     surgery .


RECOMMENDA TIONS

To Improve Medicare Payments For Cataract Surgery

     The HCF A should develop national guidelines covering the number of postoperative
     days included in a global fee for cataract surgery, and the percentage allocation of a
     global fee to surgery and postoperative care.

     The HCF A should require all carers to instrct optometrsts and ophthalmologists in
     the use of procedure code modifiers, and to establish screens for duplicate billng within
     the global- fee period. The HCFA should also identify ophthalmologists most likely to
     refer cataract surgery patients to optometrsts for postoperative care. Such referrals
     would provide for a focused postpayment review of cataract surgery patient records to
     insure appropriate bilings.



To address referral arrangements that may violate the anti-kickback provisions

     The HCFA should require carrers to refer any potentially abusive arrngements
     between ophthalmologists and optometrsts, which the carrer identifies, to the Office of
     Inspector General for investigation.

To Improve Quality Of Care For Cataract Surgery Patients

     The HCF A should require PROs, including local ophthalmologists, to work with their
     State Boards of Optometry to establish protocols for postoperative cataract surgical care.
      Such protocols should addrss the minimum number and frequency of postoperative
      visits, the necessity for 24- hour avmlabilty of emergency care, and the presence of
      wrtten agreements between referrg practitioners regarding the division of
      responsibilties. These protocols should become pan of the PROs ' review of cataract
      surgery in both inpatient and ambulary settings.

      The HCFA should require mandatory seond surgical opinions for elective surgeries,
      such as cataract surgery, paid under Medcare.

COMMENTS

The HCFA agreed with the recommendations with the exception of a second surgical opinion
for cataact surgery. We continue to believe that the requirement of a second opinion for
catarct surgeries is essential, parcularly when this surgery is generally performed in other
than an acute care facilty.

The OIG issued the draft inspection repon on "Ophthalmology/Optometr Relationships In­
volved in Cataract Surgery " for comments to the American Academy of Ophthalmology and
the American Optometrc Association. Neither organization disagreed strongly with the find­
ings. Their comments presented their opposing positions regarding the use of optometrsts
provide postoperative care.

The complete text of the comments by HCFA and the Academy and Association are included
in appendix III.
                     ..              ...............
                                            .........
                               .... ..........
                                             ... ...   .........
                                                 ............     ..........
                                                        ...... ......
                          .......... ...... ........... ...
                                                         ...........
                                                            ...... ....      .........................
                                                                      ... ......................
                                                        .......................    ..............
                                                                                  .....
                                                                     ... ....... ........ ..... .............
                                                                                           ... .... .....
                                                                                                .........
                                                                                                      ...............
                                                                                                           ....... .....




                                           TABLE OF CONTENTS


                                                                                                                                               PAGE


EXECUTIVE SUMMARY

NTRODU CTJ ON                                                         ............ ......... .........................0 II.... ..... II. 11..


     o BJ ECTIVES                                                                                                ... ..0... II..... ..11.... .11....
     BACK G RO            UN D.                                                                                          ..11... .........      .11... ....


     M ETHO         DOLOG Y                                                                 ... ... II          ........... II..... ...........        .11.



FI N DI 
   N GS                                                                                                                     e.II... .11.110 811.8.
                                                                                                                           It II O. II




RECOMMENDATIONS AND AGENCY COMMENTS ...........................


APPENDIX I
     OPHTHALMOLOGY IOPTOMETRV SAMPLE ................................


APPENDIX II
     OPHTHALMOLOGISTS COMPARISON DATA ...............................


APPENDIX II
     COMMENTS BY THE HEALTH CARE FINANCING
     ADMINISTRATION , AMERICAN ACADEMY OF
     OPHTHALMOLOGY, AND AMERICAN OPTOMETRIC
     ASSOCI A TION.. 
              II....... .... ..... .... ..... ..... ..                                 .11..1111110".. e ClII.. eo.o.o 000 II 0 0 .

                                       INTRODUCTION


OBJECTIVES

This inspection focuses on issues involving postoperative care rendered by optometrsts to
Medicare beneficiares following cataract surgery. The overall objectives of the inspection
were to determne:

      the extent and frequency of postoperative care by optometrsts;

      the extent of referral arangements between ophthalmologists and optometrsts;

      the manner of biling by ophthalmologists for cataract surgery when an optometrst
      performs postoperative care; and

      whether the practice of optometrsts ' providing cataract surgery postoperative care could
      lead to abusive referral arangements, and possible duplicate bilings.

BACKGROUND

This program inspection was requested by the Administrator of the Health Care Financing Ad­
ministration (HCFA) who was concerned about ophthalmologists ' referrng cataract patients to
optometrsts for postoperative care after performing cataract surgery. The concern stemmed
from a statement by the American Academy of Ophthalmology regarding adherence to profes­
sional ethical standards. According to the Academy, operating surgeons are responsible for
providing postoperative care to their patients. Funher, surgeons who turn over their respon­
sibility for postoperative care to someone else do not fulfill their responsibilties to the patient.
In addition , the bylaws of the American College of Surgeons state that it is unethical to turn
over postoperative care of a patient to another physician who is not as well qualified to under­
take it. Their concern is that the quality of postoperative car provided by someone other than
the surgeon may be poor and result in placing the patient at greater risk. 



Nature of Surgery

Cataracts of the eye occur when the natural crystallne lens inside the eye becomes cloudy.
Cataracts can occur at any age, but are more prevalent in the elderly population. Due to the
aging process, the natural lens becomes hard and unable to focus. This progressive process
may eventually result in blurred vision or even blindness. Surgery is the only effective way to
remove a cataract. Vision can be restored after the natural lens of the eye is removed and a
permanent intraocular lens (IOL) is implanted inside the eye. Cataact glasses or contact len­
ses are used for candidates not suitable for IOL implants, although even those with an IOL im­
plant usually require eyeglasses for reading, sewing, or other activities.
Due to technological advances over the last 10 years, cataract surgery is highly successful; the
patient s vision can be restored in up to 90 percent of all cataract cases. However, according
to medical studies, increasing patient age, surgical problems, postoperative complications, and
adverse reactions are among the factors which could reduce visual acuity after cataract
surgery. It is estimated that medical complications following cataract surgery may occur in
about 3 to 5 percent of the cases but would not necessarly result in a loss of vision if recog­
nized and treated properly. The postoperative recovery period usually lasts 6 to 12 weeks,
during which time the eye heals and visual rehabiltation takes place.

Medicare Coverage



Under Medicare, vision care services are limited to those necessar to treat eye diseases such
as catarcts. Cataract surgery, as well as preoperative and postoperative care, are covered by
Medicare when medically necessar. Cataract surgery is considered major eye surgery with a
potential for complications and is one of the most frequently performed procedures in the
Medicare population. Over one millon cataract surgeries were performed in 1987, with more
than $1 bilion paid to surgeons.



Cataract surgical care for Medicare beneficiares is covered by a global fee that includes
surgery and postoperative care. The Medicare carrer establishes the global- fee period using
criteria developed from medical practice in the carrer s service area. The surgeon provides all
the services during the global- fee period, e. g. 90 days, when a global fee is biled. When the
surgeon provides some of the services, e.g. surgery only, and the postoperative care is
provided by another physician, the two- digit modifier " 54" should be used on the bil to indi­
cate surgical care only. When only postoperative care is provided, the modifier " 55" should
be used to show postoperative management only. Carers are required to screen bils for eye
care services within the global- fee period to avoid inappropriate or duplicate payments.


In 1980, the Omnibus Reconciliation Act authorized Medicare payments to optometrsts for
services related to catarct surgery (Section 937 of Public Law 96- 499). Until March 31
1987, optometrsts were covered by Medicare for examination services related to aphakia (the
absence of the natural lens in the eye). Optometrists could only bil Medicare for determining
visual acuity, prescribing glasses, and dispensing optical devices to patients who had had
cataracts removed, although the State may have allowed them to perform a wider range of ser-
VIces.

Effective April 1 ,1987, Medicare coverage of optometrsts ' services was expanded with Sec­
tion 9336 of Public Law 99- 509 (the Omnibus Budget Reconciliation Act.of 1ge6, known as
OBRA 86). This expansion allowed Medicare coverage of optometrists as physicians (as
defined in the Social Security Act governing Medicare) in providing cataract surgery pos­
toperative care, within the legal authorizarions of the States in which they practice. However
this expansion of coverage raises questions about the division of responsibility between the
ophthalmologists and optometrsts regarding appropriate patient care and biling to the
Medicare program.

Licensure Issues

There is no uniform set of optometrc services covered by Medicare, since State licensure laws
vary widely. Qualifications, training requirements, and the scope of practice for optometrsts
are established under State law. In this regar, 50 States permit optometrsts to use diagnostic
drgs. Twenty- three of the States also permt optometrsts to prescribe therapeutic phar­
maceutical agents, which significantly expands the optometrc scope of practice and the ability
to treat some postoperative complications. Postoperative cataact care was within the scope of
practice of an optometrst in the seven States included in the inspection sample. All seven
States permt optometrsts to use diagnostic drgs, and three of the seven also allow the use of
therapeutic drgs.

OIG Concerns

The Office of Inspector General (OIG) is concerned with situations in which abusive referral
arangements result in Medicare overpayments and kickbacks. Postoperative care by someone
other than the surgeon raises concerns over global reimbursement to surgeons who perform
only cataract surgery and not postoperative care. In addition, patient referrals between op­
tometrsts and ophthalmologists (so-called networking) could result in improper payments.
The 010 has identified potential vulnerabilities, including coercion to refer patients and
failure to adequately provide preoperative and postoperative care. Instances of these potential
vulnerabilities have been identified in complaints to the OIG and/or to the Senate Select Com­
mittee on Aging.

METHODOLOGY

A sample of Medicare carers was -selected at random proponional to size (in terms of num­
bers of IOL surgeries in 1985). Two carers were randomly selected twice and provided two
independent samples. Selected carers processed claims for beneficiares in Nortern and
Southern Calfornia, Louisiana, Montana, Western Missouri, Upper New York State, North
Carolina, and Oregon. (See appendix I.) Each carer was requested to identify all
beneficiares who received one of four specified cataract services during the period April I
1987 through March 31 , 1988. Each carrer then provided beneficiar payment histories for a
random sample of 100 of the identified beneficiaries (200 for those carers which provided
two samples). The total sample of 1 000 beneficiaries who had cataract surgery represented
  062 procedures, since some beneficiaries received surgery on both eyes.

In addition , the eight carrers provided the OIG with the names of a sample of three (six at two
carrers) ophthalmologists from each of two groups: (1) those who received the highest
Medicare payments in that specialty; and (2) those who were paid in the mid-range of pay­
ments during fiscal year 1987. Of the 60 names of ophthalmologists provided by the carriers,
58 were contacted. We were unable to contact the remaining two.

The ophthalmologists we talked to provided us with the names of 49 patients who had
received. cataract surgery. Those who refer their cataract surgery patients to optometrists for
postoperative care also provided us with the names of 28 of these optometrsts.
The ophthalmologists, optOInetrsts, and patients were contacted in person or by phone and in­
terviewed using discussion guides. Opinions were obtained regarding the issue of
optometrsts ' providing referrals and postoperative care following cataract surgery, second
opinions for cataract surgery, and the effect of cataract surgery on the patient s life.

Peer review organizations (PROs) and the State Boards of Optometr were contacted in each
of the sampled States. The organizations were queried on the extent of postoperative care by
optometrsts after cataact surgery in their States, and whether they were aware of positive or
negative outcomes of this practice.
                                         FINDINGS


Medicare May Be Paying Too Much For Postoperative Care Following Cataract Surgery

A. Variance In Postoperative Days and Global Fees
There are no specific HCFA guidelines regarding:

      the number of postoperative days covered by a global fee; and
      the percentage or amount of the global fee allocated for the surgery and postoperative
      care.

This leads to nationwide varances in postoperative days covered by Medicare and in the
amounts allocated to surgery and postoperative care. Through our contacts with the eight
Medicare carers included in this inspection, we found that the global fee covered postopera­
tive periods ranging from 10 to 120 days, with a median of 90 days.

We asked the 58 ophthalmologists their opinions about the appropriate length of the postopera­
tive period of recovery following cataract surgery. The median number of postoperative days
identified in these interviews was 86, ranging from 10 to 365 days.

Where the carer   s global- fee postoperative period is 10 days, both ophthalmologists and op­
tometrsts can begin biling for services rendere on the 11 th day, 1 day following the end of
the carer-established global- fee postoperative period. This very shon global- fee postopera­
tive period allows additional program payments. These payments could be avoided if national
guidelines on the number of postoperative days in a global fee were developed which included
a greater number of days in the postoperative period.

We also found the portion of the global fee allocated for postoperative care varied among car­
                    carers utilized a 70/30 global- fee split between the surgical procedure
riers. Three of the 8
(70 percent) and postoperative care (30 percent). Other carrers based Pos toperative   alloca­
tions on specific procedure codes, made adjustments after a review of the charges, or used no
modifier or global- fee split at all.

B. Optometry Services Biled During the Global- Fee             Period

Ophthalmologists biled Medicare a global fee for cataract surgery in over 97 percent of the
L062 cataraci. surgery cases reviewed. The global fee covers both the surgical procedure and
postoperative care. In 25 of the cases covered by a global fee, optometrists also biled
Medicare. In 10 of these cases, the services provided by the optometrists were outside the
global- fee period. However, in the remaining 15 cases, the services were perfonned within
the glo bal- fee period. These services represent a potential overpayment of $826 because car­
riers did not deny these services even though a global fee was biled by the ophthalmologists.
The HCFA requires that Medicare carrers establish a screening mechanism that wil allow for
identification of inappropriate or duplicate services.
There Is A Direct Correlation Between The Existence Of Referral Arrangements, Formal
And Informal, And The Use Of Optometrists For Follow-up Care

A. Optometric Referrals For Cataract Surgery
The inspection found that 13 or 46 percent of the highest-paid ophthalmologists sampled
allow optometrsts to provide postoperative car to their cataract surgery patients, in contrast
to 3 or 10 percent of those in the mid-range of payments. We also found that sampled ophthal­
mologists who allowed optometrsts to provide their cataract surgery patients with postopera­
tive care received 32 percent of their cataact surgery patients through referrals from
optometrsts. Ophthalmologists who did not refer their patients to optometrsts for postopera­
tive care received only 7 percent of their cataract surgery referrals from optometrsts.

                                              F!qure 1

                  COMPARISON OF' OPHTHOI.OGIS1 WHO 00 Use: OPTOMETISTS WITH
                   THOSE WIO DO Nor USE OPTOMETRISTS FOR POSTOPERTIVE CAE
                                     BY SOURCES OF    REiRRA
                                                                      L.QOID

                                                                     DO USE

                                                                     00 NOT USe:
                   OPTOM   IS'


                   OWN PATIENT




              t5 WORD OF MOUTH



                OTHE= PHYSICIAS




                                     10 ZO :1 0(
                                             P!:CENTAGE:
                                                  (re)
                                      FIGURE AR 
   ElENIIES :1)


We identified two examples of contractual agreements between ophthalmologists and op­
tOmetrsts. The first involved an employment agreement between an ophthalmologist and op­
tOmetrst. It was determined by Offce of General Counsel to represent a bona- fide
employment contract, exempt from criminality under the law. The second involved a' lease ar­
rangement. It was not developed by the Office of Investigations because of the minimal pay­
ments involved.

The average percentage of optometrc referrals to the sampled ophthalmologists varied by
State, ranging from 5 to 28 percent. The highest percentages of optometric referrals occurred
in those States that permit optometrsts to provide therapeutic drugs.
                                           Fiaure 2

                           PERCENTAGE OF REFERRALS

                              FROM OPTOMETRISTS
                                          8Y STATE


                 2ft



              = '5


                   5.

                           CA   LA MO MT
                            STATes TI-"
                                            NC NY 

                                        !:RAF'e:UTIC ORUCS
                                        A.T AL.!.OW T
                         STATES THAT CO NOT ALL' W THERAPEUTIC DRUGS




B. Postoperative Care by Optometrists

An examination ' of three sources of data revealed that:

      sixteen of 58 ophthalmologists interviewed (nearly 28 percent) allow optometrsts to
      provide postoperative car to their cataract surgery patients;

      in 15 of 1062 cases reviewed, payments were made inappropriately for postoperative
      care that should have been denied, because the surgeon had already been paid a global
      fee (without moifers) that includes postoperative care; and

      eighteen of 49 patients interviewed (nearly 37 percent) stated they saw a doctor other
      than the surgeon for postoperative care. In some instances the patients were not certain
      if the doctor was an ophthalmologist or an optometrst.

A comparson of data between the 16 ophthalmologists who allow optometrsts to provide pos­
toperative care and the 42 who do not is shown in appendix II.

Ophthalmologists reported the major reason patients returned to an optometrst for postopera­
tive care was the distance involved in traveling back to the operating surgeon. Optometrists
stated that patients preferred to return to their local physician for care; this was confirmed by
almost half of the patients who received cataract surgery. They stated that travel was required
to receive cataract surgery since it was not available in their communities.

All 28 optometrsts interviewed stated they provide cataract surgery postoperative care, and
feel confident in monitoring these patients for the detection of complications that would re­
quire the patients ' return to the ophthalmologist. However, 17 (61 percent) said they only
treat routine complaints and complications such as blurred vision , redness of the eye, and a
slight increase in intraocular pressure. Thirteen of the 17 are in States that allow optometrsts
to provide therapeutic drgs to treat eye conditions, but only 1 of the 13 said he would attempt
treating a serious complication , and then only after conferrng with the operating ophthal­
mologist. The remaining 11 would provide only routine eye exams and refractions, and
monitor the eye for increases in pressure and other indications of complications. These 11 op­
tometrsts indicated that patients with any indication of a complication would be referred back
to the ophthalmologist for treatment.

The ophthalmologists interviewed were significantly divided on the issue of optometrsts
providing cataact surgery postoperative care. We found that the majority (42) of those oph­
thalmologists interviewed believed that optometrsts are not qualified to provide postoperative
care. A minority of (16) ophthalmologists interviewed approve of optometrsts providing their
patients with postoperative care. The majority also stated that the services provided by an op­
tometrst durig postoperative care are not as comprehensive as the services provided by an
ophthalmologist.


The Inspection Did Not Examine Quality Of Care; However, Some Potential Vulnerabilties
Were Noted

A. Potential Causes of Poor Quality Care
While a medical peer review of patient records was not performed, interviews with sampled
ophthalmologists indicated the following potential vulnerabilities in cases where an op­
tometrst would provide the follow-up care to cataract surgery.

      Twelve percent of the ophthalmologists do not always examine the patient prior to the
      date of surgery.

      Twelve percent of the ophthalmologists do not always examine the patient the day after
      surgery.
      Ophthalmologists who refer their patients to optometrsts for postoperative care,
      compared to those who perform their own postoperative care, were found to follow their
      patients for a shoner postoperative period.

Our review did not find an existing national professional standard for cataract surgery follow-
up care provided by an optometrist. In the absence of a standard for treatment, " sub-standard"
care cannot be identified durng peer review with the degree of precision possible when
reviewing postoperative care rendere by the surgeon.

Most optometrsts interviewed said ifuat :a1though they provide postoperative care, they only
treat routine complaints, and would rrefer :patients with evidence of a serious complication
back to ophthalmologists for tratment. This, however, does not constitute a standard for care,
and may place patients at risk if a ra-e sUTgica complication is not identified by an optometrst.

B. Second Opinion For Catarac Slrgery

The physicians interviewed stated that second opinions were requested as a requirement for
private insurance. Thiny of 58.ophtha111oi,ogists (52 percent) stated they received requests for
second opinions, and 11 of 28 of the optometrsts (39 percent) said they had provided
Medicare patients with second opinions regading cataact surgery. Ten of the 49 Medicare
patients (20 percent) we interviewed stated thy sought a second opinion before undergoing
cataract surgery. Six of the 10 patients sou:glt:a seond opinion from an ophthalmologist, and
the remaining 4 saw an optometrst for the .send opinion. This study did not attempt
determine the medical necessity of the 1, 061 :surgeries reviewed. However, cataracts develop
slowly, and surgery may be avoided for ma'RY yeas if the patient so desires. Additionally,
cataract surgery should not be performed UIi ess eyesight is expected to improve.

The OIG has previously recommended that legislation be adopted to require a mandatory
second opinion program for elective surgeries for Medicare patients.
                  RECOMMENDATIONS AND AGENCY COMMENTS

RECOMMENDATION

The HCFA should develop national guidelines covering the number of.postoperative days
(e. , 60 to 90 days) that should be included in global fees, and the percentage allocation of
global fees to surgery and postoperative care (e. g., 80/20). These guidelines should allow suf­
ficient postoperative time to complete all necessar postoperative exams and procedures, with
the exception of complicated cases.

AGENCY COMMENTS           - The HCFA generally concurs with our recommendations. It indi-
cates that effons are also being made to implement and develop uniform definitions of ser­
vices. As pan of that effort, it is considering establishment of a uniform reduction in the
global charge where postoperative services are not performed by the operating surgeon.

OIG RESPONSE 
      - We are pleased with the HCFA response. We believe the development of
national guidelines is the best approach to resolving the inconsistencies in the number of pos­
toperative days and the percentage allocation of global fees among Medicare carrers.

RECOMMENDA TION

The HCFA should require all carers to instrct both optometrsts and ophthalmologists in the
use of modifiers when cataract surgery postoperative care is shared with or provided by an op­
tometrst.

AGENCY COMMENTS          - The HCFA concurs and states that a reminder is being made to all
carrers as pan of the 1989 Common Procedure Code System update.

OIG RESPONSE 
     - We ar pleased that HCFA concurs and that HCFA is reminding carrers of
the use of modifiers. However, we believe HCFA should also ask carers to include a
reminder on the imponance and use of modifiers in the next newsletter/bulletin issued to the
physician community.

RECOMMENDATION

The HCFA should require all carrers to identify ophthalmologists most likely to permit pos­
toperative care by optometrsts. (The inspection found the highest- paid ophthalmologists to
be most likely to share cataract surgery care with optometrists.

AGENCY COMMENTS            - The HCFA agrees with thi recommendation. Instrctions were
recently issued to carrers requiring detection of those physicians with unusually high in­
creases in payment. These ophthalmologists or ophthalmologists and optometrists wil be sub­
jected to an intensified review.
OIG RESPONSE 
     - We are pleased that HCFA has issued instrctions to carrers to identify
physicians for review who have had high increases. We believe that HCFA should also issue
instrctions to carers that require a review of total payments to ophthalmologists in order to
identify the highest paid ophthalmologists. Our study found that the highest paid ophthal­
mologists were those most likely to share cataract surgery follow up care with optometrsts.

RECOMMENDATION

The HCFA should require all carers to have the necessar screens        in place to detect services

biled within a global- fee period.


AGENCY COMMENTS          - The HCFA concurs with this recommendation, but believes that the
present claims review requirements provides for such detection.

OIG RESPONSE 
     - The OIG supports the sections in the Medicare Carers Manual that re-
quire carers ' systems to conduct comparsons to ensure proper payment. However , we also
believe that HCFA should expand the manual so that the comparsons also include a physician-
to- physician review to assess payment when one physician , e. g. an ophthalmologist, bils a
global fee for cataract surgery and a optometrst bils for a postoperative service during the
global fee postoperative period.

RECOMMENDATION

The HCFA should require all carrers to conduct postpayment reviews of cataract surgery to
determine:

          if physicians are correctly biling and using modifiers;

          if optometrsts are being paid for services already paid to the ophthalmologist in the
          global fee; and

          the possible existence of arrangements which might violate anti- kickback statutes.

AGENCY COMMENTS          - The HCFA concurs with this recommendation , and wil enhance
the present Medicare Carers Manual postpayment review and alert list to address these vul­
nerabilities. The HCFA wil consider asking several carers to conduct pilot postpayment
studies in this area.

OIG RESPONSE 
         - We suppon HCFA' s current efforts to direct and focus postpayment
review. However, we believe the areas for postpayment alerts should also be amended to in­
clude duplicate payments to physicians when they bil for services that already have been paid
to another physician as pan of a global fee.
RECOMMENDATION

The HCFA should require carers to refer any pOtentially abusive arangements between oph­
thalmologists and optometrsts, which the carer identifes, to the Office of Inspector General
for investigations.

AGENCY COMMENTS            - The HCFA agrees with this recommendation and is emphasizing
the detection and referral of fraudulent or abusive situations through Manual guidance and
training, and monitoring of the carers activity and effectiveness.

RECOMMENDATION

The HCFA should require mandatory second surgical opinions for elective surgeries paid
under Medicare. Cataract surgeries, which ar basically elective, would be included for man­
datory second opinions by another ophthalmologist.



AGENCY COMMENTS           - The HCFA does not agree with this recommendation. They believe
that the present preprocedural review by the PROs wil function as a second opinion and that
pending regulations wil mandate a PRO second opinion to resolve outstanding uncenainties
as to the medical necessity of the procedure.

OIG RESPONSE 
      - In cataract surgery, the accepted indications for surgery are based on the
impact of the cataract on the beneficiares ' quality of life as well as on a uniform set of clinical
measures. Since the preprocedure review progrm concentrates on review of relatively simple
clinical indications, this program wil not be as effective as the visual inspection and consult­
ation contemplated in our second opinion reommendation.

RECOMMENDATION

The HCFA should require PROs, including local ophthalmologists, to work with their State
Boards of Optometr to establish review procedures for postoperative cataract surgical care.
Such review procedures should address the minimum number and frequency of postoperative
visits, the necessity for 24- hour availability of emergency care, and the presence of written
agreements between referrng practitioners regarding the division of responsibilities.

AGENCY COMMENTS             - While HCFA agreed in principle, they indicated that this require-
ment currently is beyond the scope of the PRO program because PROs do not review care
provided in practitioners ' offices.

OIG RESPONSE 
     - We have recommended PRO involvement based upon their role as arbiters
of medical practice in their respective States. We feel that the division of responsibility al­
lowed by OBRA 86 requires involvement by HCFA and its contractors in ensuring quality of
care for Medicare patients, who account for the majority of cases in which such divided care
wil be rendered.

HEALTH ORGANIZATION COMMENTS

The OIG issued the draft inspection repon on " Ophthalmology/Optometry Relationships In­
volved in Cataract Surgery " for comments to the American Academy of Ophthalmology and
the American Optometrc Association. Copies of the comments are included in appendix III.
The following is a summar of the responses received from these organizations.

The American Academy of Ophthalmology stated that in general they were pleased with the
findings and recommendations in the repon. However, they urged that we drop the recommen­
dation that HCFA develop national guidelines for splitting the global fee and the recommenda­
tion that PROs work with the State Boards of Optometr to establish review procedures for
postoperative cataract surgical care. The Academy commented regarding the rationale for
refeITs of cataact surgical patients to optometrsts for car.    They  stated that
ophthalmologists ' services are widely available in urban and rural areas and that the travel dis­
tance to an ophthalmologist, for the majority of patients, should never exceed an hour s drve.
The Academy also recommended a 90- day postoperative period for cataract surgery.
The American Optometrc Association provided current figures on the number of States that
permt optometrsts to use diagnostic and therapeutic drgs. They also noted one inconsisten­
cy in the repon regarding the services that can be provided by optometrsts following an ex­
pansion of coverage.

OIG RESPONSE 
      - We have reviewed the comments of these organizations but believe that
changes to the basic recommendations in the report arenot waranted. We feel that the find­
ings establish the requirement for definitive guidelines and the need for a medical review
presence to ensure the medical necessity and quality of care when services are performed.

In response to the comment by the American Academy of Ophthalmology regarding the
geographic dispersion of ophthalmologists, some of the beneficiares whom we contacted in
our study and who had seen an optometrst for postoperative care stated that there was not
ophthalmologist that they were aware of in their immediate community. Our report according­
ly has included this information as a conclusion of those beneficiares.

The Academy s recommendation of a 90- day postoperative period coincides exactly with the
median period used by the Medicare carrers sampled in this review.
                                        APPENDIX I

OPHTHALMOLOGY/OPTOMETRY SAMPLE


CARRIER                                              STATE

Arkansas Blue Shield, processing claims for          Louisiana
Blue Shield of California                            California (Nonhern)
Transamerica Occidental of California                California (Southern)
Blue Shield of Kansas City                           Missouri (Western)

Blue Shield of Western New York, Inc.                New York
                                                     (Does not include New York City)
Prdential of North Carolina
                         North Carolina

Aetna of Oregon                                      Oregon
Blue Shield of Montana                               Montana

*Two separate samples of 100 each
                                     APPENDIX II

OPHTHALMOLOGISTS COMPARISON DATA


The inspection found that of the 58 interviewed ophthalmologists who perform cataract
surgery, 16 (28 percent) said they approved of optometrsts providing their patients with
catarct surgery postoperative care. The rem ning 42 (72 percent) felt that optometrsts were
not qualified to provide postoperative car. The comparson of data between both groups is
outlined below. The comments address ophthalmologists who allow postoperative care by op­
tometrsts.

                         Allow           Do Not Allow
                         Postop          Postop
Data                     Car             Care            Comments
                         (16)            (42)


Average number                                           A vera ed fe
of years in                                              years In practIce
practice
Percentage of            79%             59%             Had a higher Medicare
practice with                                            patient population
Medicare patients
Percentage of                                            Performed a higher cataract
surgery performed at:                                    surgery percentage of their
                                                         surgenes in an ambulatory center
(a) Hospital             26%            71%              (ASC)
    surgical
    Outpatient
(b) ASC                  74%            28%

Percentage of            32%                             Received a higher
cataract surgery                                         percentage (25% higher)
referrals from                                           of optometrc referrals
optometrsts
Patients always          14 (88%)       41 (98%)
examined by the
ophthalmologist
prior to the day
of surgery
Continued
                            Allow           Do Not Allow
                            Postop          Postop
Data                        Care            Care            Comments
                            (16)            (42)


Patients examned             14 (88%)       41 (98%)
by the
ophthalmologists
the day after
surgery (24 hr. exam)

Length of                                                   Follow their
follow-up by the                                            patients for a
ophthalmologists:                                           shoner time after
(a) one week or                                             surgery
less                         3 (19%)
(b) 2-4 weeks                2 (13%)
(c) 5- 7 weeks               2 (13%)        4 (10%)
(d) 8 weeks                  9 (56%)        38(90%)
Dollars paid                 $30, 627 042   $39, 155, 850   28% of the
to the sampled
ophthalmolo ists                                            cofisicians
                                                               lected 44%
during FY 1 87                                              of the total
                                                            Medicare payments
                                                            for physicIans
                                                            sampled.

Average payment $ 1     914 190 $ 932 282

Total: $69, 782, 892   paid to the 58 sampled physicians
APPENDIX II

"""'''               ~~~                - - -                  ._-
-..-...                        ....   ----   - --..


:::\f         ::TM                                                                   Healtt: Care
                           EALTH iLHV           ERV!                                 FinancIng A9mlnlstration


                                                                                 .a.. -.-... .


                                                0 152                                Memorandum
Date

From
         William L. Roper, M. D.
         Administ::ator             LA          "L-
         OIG Draft Report: Ophthalmoloqy/Optometry Relationships in

Subject Cataract Surgery - OAI-07-SS-00460


         The Inspector General

         Office of the Secretary


         We have reviewed your draft report which addressed the

         interrelationship of ophthal oloqists and optometrists in

         cataract surgeries and the resultant effects on MediQare

         reimbursement.
         In the interest of clarity, we are including our response to your

         recommendations as an attachment.

         Thank you for giving us the opportunity to comment on this dr

         report .

         Attachment




                                                  RECEIVED
                                                       JAN 06 19BQ

                                                              OFFICE OFj
                                                 lMseECIQ.R                ERA
                          Health        are Financin Administration
                                    Comments on OIG Draft ReDort

                          "ODhtha.lmoloqy IODtometrv Relationsh
                                   Involved in Cataract Sur             erv"
                                              OAI - 0 7 - 8 a - 00460

  Recommendation 1:
  The HCFA should devel-. .national
  of postoperative days ncluded inquidelines   covering the numer
                                     a global fee for cataract

  surgery, and the
 and postoperative :r:.

                                   petage
                               allocation of a global fee to surgery

 HC:'A Cownents:
 We generally agree with the recomendation.
                                               Our Bureau of
 Quali ty Control has conducted a study of cataract surgery and

 associated pre- and postoperative services. The
 all carriers and indicated variances in global feestudy  included

                                                     structures  as

 well as variances in billing                      paymt
 completing the cataract study and we plan to address are
                                       practices. We the currently
                                                            issue of

 carrier variances in the structure and paymnt of global
 packages. As part of our effort to                           iJRlcmt
 definitions of services as required by section and
                                                4055develop unifor:
                                                     (a) (2) of the
 Omnibus BUdget Reconciliation Act of 1987 , we are considering

 establishing a unifo    reduction in the global charge where

 postcperative services are not performed by the operating

 surgeon.
Recommendation 2:
The HCFA should require all carriers to instruct optometrists and

ophthalmologists in the use of procedure code modifiers.
HCFA Comments:
We are reminding carriers of the use of all CPT-4 modifiers as

part of the 1989 HCFA Common Procedure Coding System update.

Recommendation 3:
The HCFA should require
                            carriers to identify ophthalmologists

                                        all
most likely to permit postoperative care by optometrists.
  HCFA Comments:
  We recently issued instructions requiring carriers to calculate

  the pe centage of increase in total Medicare payments to

  physicians in order to detect those with unusually high

  increases.  Physicians with significant increases / such as the
  ophthalmologists operating in tandem with optometrists
                                                         / will be

  detected by this analys s and subj ected to more intensified
  review.
 Recommendation 4:
 The HCFA should require all carriers to have the necessary

 screens in place to detect services billed within a global fee

 period.
HCFA Comments:
Section 7527 of the Medicare Carriers Manual currently requires

that a procedure-to- procedure review be done of each claim

submi tted for payment to identify

are normally part of surgical packages.individual procedures which

                                                      all




Recomme      dation
Th. HCFA should require
                        all carriers to conduct
reviews of cataract surgery to evaluate use of modifiers 
          postp&yat
or duplicative payments to optometrists, or the existence/ of

                                                           excess

kickback schemes.
HC?A Comments:
The Postpayment Alert List (section 7514 E of the Medicare

Carriers Manual) lists areas of previously detected p

                                                        ogramcases

vulnerability that carriers should consider when selecting
for postpayment review. It currently includes "
excessive preoperative visual acuity testing" andcataracts
                                                   "        ­
operative care - not included in global fee          pre- and post­

regardless of the place of service.           as applicable,
                                       We will add a refe ence
use of the modifiers. The existence of kickback schemes would

hopefully be detected as a by- product of an intensified

postpayment review. In addition, we will consider asking several

carriers to do pilot postpayment studies in
                                                                this area.

Recomrenda t ion 


The HCFA should require carriers to refer any potentially abusive

arrangements between ophthalmologists and optometrists /
carrier identifies,                  to the OIG for    investigation.
                                                                              which the
  HCFA Comments:
  The Medicare Carriers Manual contains numerous references to the

  requirement that all apparent fraud or abuse cases and

 uncorrected misbilling cases be referred to 

                                              OIG, regardless
 special ty. We have also instructed the carriers              of

                                                   to periodically

 contact OIG to determine the status of referred 

                                                  cases.
 addition, section 11000 , the fraud and abuse chapter     In
                                                        undergoing

 final changes prior to final Publication, stresses the same

 requirements. We also devoted much time to this 

 recent carrier medical review                     subj ect during
 the numer of FY 89 referrals totraining. We will be monitoring

                                   dete ine whether this new
 emphasis has been effective.

 Recommendation 7:
 The HCFA should require mandatory second surgical opinions for

 elective surgeries paid under Medicare.  Cataract surgeries,
 which are basically elective, would be included for mandatory

 second opinions by another oph
                                  almologist
 HCFA Comments:
We do not believe it is necessary to zandate second opinions for

all cataract surgeries for the followinq
                                           reasons:
     Under the third Scope of Work, Utilization and Quality

     Control Peer Review Organizations 

                                       (PROs) are required
     review 10 procedures on a preadmission/preprocedure   to

                                                         basis

     and deny payment for any procedure which is not medically

     necessary or is proposed to be deli v.red   in a setting which
     is not appropriate. In effec,
     opinion on the necessity and     the PR will render    a second
     surgery .                      approriateness of the
     The impending implementation of section 9401 of the

     Consolidated Omibus Budget  Reconciliation Act will extend
     preadmission/preprocedure
                                 view to outstanding

     mandate a second opinion to resolve also require the PRO to

     uncertainties as to the medical necessity of the procedure.

     This provision is being implesented through the regulatory

     process.
Recommendation 8:
The HCFA should require PROs to work with their state Boards of

Optometry to establish review procedures for postopera
 ataract surgical   care.                              ti ve
                         Such review procedures should address
the minimum numer and frequency of postoperative visits, the
necessity for 24-hour availability of emergency care

                                                    , and the

presence of written aqreements between referring practitioners

reqaraing the aivision of responsibilities.
HCFA Comments:
Such a requirement currently is
                                beyond the scope 0 f the PRO
proqram as PROs do not review care
offices. If                        provided in practitioners'

             and when PROs beqin reviewinq these services, we
will take this recommendation under
                                    consideration.
                          "';;




                                                       AI"1ERICAN ACADEI"1Y OF OPHTHALMOLOGY




                                                 February 28, 1989

           SECRETARIAT FOR
  COVERNMEN                      L RELATIONS
                                                 Mr. Barry Steeley

                                                 Office of Analysis and Inspections

                                                 Office of Inspector General

        Hu..ru R. SIOKts.M.
                     Department of Health and Human

                     Secfet
          Post OHice Box F.                       Services
        602 Eut Cheves Street
 Florence. South urolina 29501
                                                330 Independence Avenue, S.
                                                Washington, DC, 20201
                                                Dear Mr. Steeley:

         ALL. O. IINUN. M.
        Associoue Secfe ry fOf
     Federill Economic Policy                   Thank you for the opportunity to review your draft

   14 West Mount Vernon Place                   report entitled, Ophthalmology/Optometry Relationships

    Ballimore. Maryland 21201
         MICHAEL A. LEM'- M.
                                                Involved in Cataract Surgery. The report provides some

        Associale SecrelilfY          iOf       new documentation of the arrangements about which the

  ResearC';I.    Regulatory
          and Federal
                                    "'geneies
                                 Systems
                                                Academy has expressed           While its methodologyconcern.
        Center for Si!hl                        and findings appear valid, we would urge you to

!orgetown Unive"ilY Medical.Center              strengthen some of the recommendations and to attempt

    3800 Reservoir Road. S.
      Wilshington. O.             c. 2007       to re-verify some of the findings.
         DAvIa W. P. 'UE. M.
        "'ssoc/ale SeereliJry
                SI.lIe
                                      ior
                                                Recommendations.  The information you have gathered
    477 Sourh Broad Street                      should permit you to reach the conclusion that

  Merlden . Connecricut 06450
                                                optometrists should NOT be providing post-operative

  "'RTHUR M. REv..OLOS. JI.. M.
       AsSOCloile        SecrelafY lor
                                                care following cataract surgery and should NOT be

           Federal       Legis/illlon           reimbursed for services provided prior to the end of

       1515 Chain Bridge ROild

       MCLean. Virginlil 22101                  the post-operative period. We urge you to delete the

                                                draft recommendation which would require HCFA to

                                                develop guidelines for splitting the global        The
                                                Academy has recommended a 90-day post-operative period

                                                                                                                       fee.
       OFFICE OF
 COVERNMENTAL RELATIONS                         for cataract surgery.

            C." rH... C. ROOf
                 Direclor                       Qualitv of Care. The issue of quality is mentioned,

  1101 Vermonl Avenue. N.                       but not defined or explored. We would refer you to the

          Suire 300
 Washinglon . D. C. 20005- 3570                 October, 1988 report by the Office of Technology

       (2021737. 6662                           Assessment comparing some measures of quality and

                                                training. For example, in your draft, you quote

                                                optometrists as s-aying that they only provide " routine
                                                follow up care, and would refer any signif icant"
                                                complications to the operating                              surgeon.
                                                The OTA report explains how this situation could lead

                                                to serious complications based on the optometrist not

                                                being qualified to clearly diagnose the significance of

                                                post-operative symp oms, and the crucial delays when

                                                the patient is referred from the optometrist back


                                                the operating surgeon. This  type of situation, as you
                                                are aware, was the subj ectlast year of a hearing
                                                conducted by the Senate Aging Committee.
                                                             (p.



Further, your draft report does not indicate whether

both the optometrist and the operating surgeon bill

Medicare for i these instances when a patient must be
referred back to the surgeon, and how much of a

potential additional expense to Medicare this practice

could represent.
More em hasis on f indinas needed.  We were generally
pleased with the findings and recommendations made by

the report; however, there are some areas that should

be strengthened to more accurately portray the results.
In the executive sumary, " no direct evidence of poor
quality, " is a misleading title, since later in the
report, there are direct statements that the OIG has

identified: "  coercion to refer patients and failure to
adequately provide preoperative and postopertive care.

(p. 4)

Emphasi              in the executive sumary and more attention in
the body of the report should be given to the findings

on surgeons who do 
           not see the patient prior      o the
surgery (12%, see p. 14) and who do not see the patient
the day after surgery (12%, see p.        1ST
report I s strongest recommendation regards the necessity
                                                         The OTA
for a pre-operative examination by the operating

ophthalmologist.
For example, in North Carolina, where optometrists have

been most successful in expanding their scope of

license through legislative fiat, the Medicare carrier

nonetheless requires that the operating surgeon examine

the patient before cataract surgery, and the day after

surgery.  Anything less would be a dereliction of
responsibility to the patient I s welfare.
Another " vulnerability " which should be included in          the
executive sumary for emphasis is cited on page 6:
60 percent rate of overbilling by optometrists who

submitted claims for services during the global fee

period.
Also, in your sampling of cases, you uncovered two

contractual arrangements which appear to be highly

questionable, yet these are only noted in passing 

7), and not given any acknowledgement in the executive

sumary.
      tion of oDtometric post-o care. The draft
Def ini
report incorrectly ass es that state licensure to use

certain drugs also permits optometrists to provide

medical treatment to post-surgical cataract patients

(see p.   3).There are very important differences
between the permission to prescribe medications and the

ability to decide on post-operative treatment.
 Just because some of the drugs that some optometrists

 are permi tted   use happen to inclu de some of the

 medications prescribed by ophthalmologis s post­

 operatively, does not grant ability to make a medical

 determination regarding the appropriate use of the

 drugs during surgically-related treatment.
 Even if you should conclude, contrary to our view , that

 optometrists. may be qualified to perform some post­

 operative care in states where they are permitted to

 use and prescribe certain therapeutic drugs, such a

 conclusion clearly does not support the notion that

 optometrists are qualified to provide post-operative

 care in states where they are not authorized to

 prescribe therapeutic drugs.

 These are key points, and must be corrected in the

 report.  Of the eight states studied, only three permit
 optometrists to prescribe a short list of " therapeutic
 drugs. All exclude surgery from the optometrist I
scope of practice. Only Colorado addresses the

question of post-operative care. The state

legislatures passed these laws generally to allow

optometris s to care for minor eye irritations, such as
red eye, not for the treat ent of post-surgical

patients.
Compr1 es in post-operative eye care may have been
encouraged by the Medicare payment policy begun in 1986
of permitting operating surgeons and referring

optometrists to split the global surgical fee simply by

using designated modifiers on Medicare claims forms.
As a result, the Medicare program in essence, has

singled out eye care patients for inadequate post­

operative care in the hands of persons other than

medical doctors.
Licensina Boards. It is our general understanding that

the Boards of Medical Examiners in all the states

consider surgical care, including post- operative care,
to be part of the care and tre tment for which they

license medical doctors. Optometrists are licensed

under an independent. Board of Optometry't   not subj ect to
the same licensing requirements as ophthalmologists or

other medical doctors. This raises two points which

must be addressed in the report:

( 1) That any statewide decision on the practice of
medicine must include the Board. of Medical Examiners.

The recommendation for the Board of Optometry to decide

on the division of post-op care (see p. 12) is probably

not lawful, and certainly insufficient, undesirable,

and unnecessary.   This recommendation should be deleted

from the report.
     ( 2)                                           not
                The ability to prescribe certain drugs
                                                                               is
     synonymous with the ability to treat a post-operative

     patient. The surg.eon must choose from a wide array of
     medications and other interventions, as well as

     deciding when not to add or change medications. The
     optometrist I s                        strictly limited
                                       prescribing authority

                                                                          is
     in every state, which prevents the wide. choice
     treatments necessary to ensure appropriate care of the

     patient.
     Reason for Referral. The draft report states
                                                   that:
      the major reason patients returned to an optometrist

     for postoperative care was the distance involved in

     traveling back to the operating surgeon.
 This has

     always been an unsupported assertion which must be

     documented.
 We won er whether the OIG field researchers checked on

  the location of the patient' s home, the distance

 traveled to the optometrist, the distance traveled to

 the operating ophthalmologist. We wonder whether the
 field researchers documented that there were no closer

 ophthalmologists from whom the patient could receive

 both surgical and POst-operative cataract care. We

 wonder whether the researchers compared the travel

 distances for patients of those ophthalmologists who

 had a high volume of cataract referrals from

 optometrists with travel distances for patients of

 ophthalmologists who had only a small numer of
 optometric referrals.

Based on zip code studies of ophthalmologists, the
Academy has concluded that ophthalmologists are widely

distributed among urban and rural areas, and that only

 a tiny fraction of the population 

                                       more than an

hour' s drive from an ophthalmologist.   We strongly
                                                                     is


suggest that before this report 

                                     finalized, your
           is
field researchers go back and verify the assertion that

referrals are " necessary " because of the unavailability
of ophthalmologists.


If other local ophthalmologists are available, then it

is clear that referral patterns which result in

optometrists sending patients to surgeons who are too

far away to provide postoperative care are patterns

which should be investigated for Medicare anti-kickback

violations.
Thank you for the opportunity to comment on this draft

report.
Sincerely,

/L


Hunter Stokes, MD

Secretary
                      ----   --                        , -           :-.
                                                       . 1 If ..


                                                     I H 


                                                                           American Optometric Association
                                                             I L:.
                                                             a ; 

                                                                           uary 31   . 1989
                                                                           1505 Prince Street. Alexandria. VA 22314. (703) 739-9200
                                                                                                               FAX: (703) 739-9497




Mr. Mi ke Mangano

Assi stant Inspector General

 for AnalYSis and Inspection

Department of Heal th and Human                Servi ces
330 Independence Avenue. S.                    Room 5660
Washington ,         D. C. 20201
Dear Mr. Mangano:


The American Optometric Association appreciates the opportunity to review the

               Oohthalmoloov/Ootometrv R Litionshios Involved in Cataract

draft document 


        and would like to offer the following comments for consideration.


            Executi ve Summary
             age i     The correct number of states permi tti ng optometri sts to use
            diagnostic and therapeutic drugs is SO and 23. respectively (see

            attached). It is important to note that post-operative care coordinated

            between optometri sts and ophtha 1 mi c surgeons is not dependent on the use
           of therapeuti c drugs.


              age i i i We are unc1 ear how the two comments under the headi ng of
           quality of care relate to " vulnerabilities . and we believe. based on

           the study fi ndi ngs. that vu nerab i 1 i ti es is not the proper word for th
           heading.
           It is not surprising that ophthalmologists who comanage patients with

           optometrists generally follow their patients for a shorter period, since

           two providers are involved in the post-operative               The number of episode.
           visits in this case will be consistent with other models of care. and as

           the draft poi nts out. optometri sts conti nue to communi cate and consul
           with the ophthalmic surgeon on possible complications. This passage
           woul d appear to poi nt out a strength inherent 1 n comanagement. not a
           vulnerability.
          The reference to second opinions appears out of          Whi le the          place.
          possible use of second opinions may address questions of volume and

          overutilization . it does not represent a potential vulnerability to the
          rendering of quality post-operative care.

                     We be 1 i eve the reference to mi n i mum number and                           frequency of
          visits should relate to uncomplicated cases.




         Headquarters: 243 N. Lindbergh Blvd. . St Louis. MO 63141 . (314) 991-4100. FAX: (314) 991-4100
 ...                                      ,,­


 Introduction
 fg..U -- The reference it.o the Ameri can Academy of Ophtha 1 mo logy '
 e th i ca 1 standards regarding post-operati ve care is not      correct. The
 post-operative section   of th AAO Code of Ethics, conditionally approved
 by the Federal Trade Coni:ss1on , states that the ophthalmologist should

 provide " those aspects ,of eye care within the unique competence of the
 ophthalmologist (which 00 mtt include those permitted by law to be
 performed by auxiliaries.         The FTC opinion conditionally approving

 the AAO Code       states
                       speclfiiocal1y that li the rul e wou1 d not prevent
 ophthalmologists from arr glng for optometrists to provide
 post-operative eye care $iE!r!fj'ces consistent with state law " (opinion
 enc 1 osed)   .

Page 3 -- The last sente1i(ce of the first paragraph implies that the 1980

Omni busReconci iation A'ct ame'ndment a11owed optometri sts to bi
Medicare only for detenn'1:ni:rng visua1 acuity, prescribing glasses, and
dispensing optical devh:::es.. This is not correct. The law provided for
payment for all examinat10n services related to aphakia consistent with

state 1 aw , whi ch 1 ncl ude cff'  m1nations duri ng the post-operat1 ve
                                    h::e EJc,a
period. The HCFA regulati.oms  lmpleimenting this change confirmed this
intent and provfded example:s        of
                                 s:uch servi ces. Again , the correct
reference to di agnosti c md tnera eutic states is 50 and 23.

The description of the e;Jrpa;rlaed coverage of optometrists ' services
provided under the Omnibils Bwd' get Reconciliation Act of 1986 (OBRA 1986)
is not enti rely accurate. It suggests that the expansion is narrowly
applicable to the post-o eratlv period in a cataract patient. Page i
of the draft report more accurately notes that OBRA 1986 authorized

Medi care      coverage for vi silon (,are servi ces furn ished by an optometri st,
to all Medicare eligible patients. if the services are among those

covered under Medicare and if the optometrist is legally authorized

under state scope of practice law to perform the service.

Fi ndi ngs

Pace 6 -- The first paragraph describes an overpayment si tuation and
implies that it was the optometrist who billed and was paid

inappropriately.   Similarly. on page ii of the summary it is stated that
     optometrists also billed Medicare inappropriately for services

duri ng the period encompassed by the global fee. II In fact, it is the
ophthalmologist who billed inappropriately for services he or she did

not provide , and, in such cases. it is the ophthalmologist who

overpaid, not the optometrist. We believe the report should state
clearly that a physician biiiilly a gluuaJ fee should provide all the
services covered under the global fee or use a' modifier to note that

some of the package of services will be provided by another practitioner.


Page 9 -- The report notes that the ophthalmologists interviewed were

significantly divided on the issue of optometrists providing

post-operative care. however only the majority opinion is stated.
as sume that the 28 percent who comanage wi th optometri sts di d not agree
with their colleagues on the quality   f optometric post-operative care
and believe this should be highlighted.


Again ,we question the appropriateness of the word I vulnerabi1ities " and
the relevance of the second opinion discussion to this           section.
                                                                  See
comment on execut1 ve summary page i1 i .
                        --                                                          y, .


        Paae 10 -- We would suggest t.hat the heading for lOb be changed to
         Quality Considerations , sioca the report has stated there is no direct

        evidence of poor quality care. We again question the comment on

        ophthalmologists who refer to optometrists following their patients for

        a shorter period of time as in executive summary page i i i.

        Recommenda ti ons

        Paae                     We bel ieve the third recommendation should read " identify
        ophthalmologists most likely to permit post-operative care by 
                                 other
        oroviders " so as to include referrals to other ophthalmologists for
        post-operative care. We are also concerned that the reference in this

        recommendation to " highest paid" could be interpreted to mean that these

        ophthalmologists charge more per procedure, which does not seem to be

        the case. They recei ve more payments because they provi de a greater
        volume of service.

        we-1 -- The reference to secondOptometrists
                                        opinions should state " by another
                                                    are clearly qualified         to

        ophthalmologist or optometr'st"
        render an op in i on on the necess 1 ty of cataract surgery and as the report
        notes earl ier ' bn page 10, are asked to do so on occasion.
                         in executi ve summary page iv , we be 1 i eve the reference
        As s ta ted before
        to minimum number and frequency of visits should relate to uncomplicated

        cases.
Thank you for the opportunity to review and comment on this draft.                                      We wou1 d
be happy to meet wi th you to di scuss our comments and the report.

                                                                          Sincere


                                                                          Jeffrey G. Mays

                                                                          Washington Office Director





Attachment
JGM/N. Goff

0191F
